LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

September 7, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002

RE NO. 20-303:

UNITED STATES OF AMERICA V. JOSE LUIS VAELLO-MADERO

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amici Curiae Public Benefits
Scholars on September 7, 2021, I caused service to be made pursuant to Rule 29 on the
following counsel for the Petitioner and Respondent:
PETITIONER:
Brian H. Fletcher
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov

RESPONDENT:
Hermann Ferre
Curtis, Mallet-Prevost, Colt
and Mosle LLP
101 Park Avenue
New York, NY 10178
212-696-8871
hferre@curtis.com

This service was effected by depositing three copies of the Brief of Amici Curiae
Public Benefits Scholars in an official “first class mail” receptacle of the United States
Post Office as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 7th day of September 2021.

